               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-03424-74


 Community Based Outpatient Clinic 

     and Primary Care Clinic 

           Reviews at 

        Harry S. Truman 

    Memorial Veterans’ Hospital 

       Columbia, Missouri 





February 27, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EMC        Emergency Management Committee
                       EMP        Emergency Management Plan
                       EOC        environment of care
                       Facility   Harry S. Truman Memorial Veterans’
                                  Hospital
                       MI         motivational interviewing
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                   CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Acting Facility Director Comments ....................................................................                       17

  E. OIG Contact and Staff Acknowledgments .........................................................                              23

  F. Report Distribution .............................................................................................            24

  G. Endnotes ...........................................................................................................         25





VA OIG Office of Healthcare Inspections
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of December 9, 2013, at the
following CBOCs, which are under the oversight of the Harry S. Truman Memorial
Veterans’ Hospital and Veterans Integrated Service Network 15:

	   Fort Leonard Wood CBOC, Waynesville, MO

	   Lake of the Ozarks CBOC, Osage Beach, MO

	   Mexico CBOC, Mexico, MO

Review Results:           We conducted four             focused    reviews   and    we   made
recommendations in all of the review areas:

Environment of Care. Ensure that:

	   Processes are improved to ensure review of the hazardous materials inventory
     occurs twice within a 12-month period at the Fort Leonard Wood, Lake of the
     Ozarks, and Mexico CBOCs.

	   Panic alarm testing is documented at the Fort Leonard Wood, Lake of the Ozarks,
     and Mexico CBOCs.

	   Fire drills are performed every 12 months at the Fort Leonard Wood and Lake of the
     Ozarks CBOCs.

	   Doors to the examination rooms designated for women veterans are equipped with
     electronic or manual locks at the Lake of the Ozarks and Mexico CBOCs.

	   Processes are strengthened to ensure women veterans can access gender-specific
     restrooms without entering public areas at the Mexico CBOC.

	   The parent facility includes staff at the Fort Leonard Wood, Lake of the Ozarks, and
     Mexico CBOCs in required education, training, planning, and participation in annual
     disaster exercises.

	   The parent facility document emergency management plan-specific training
     completed for the Fort Leonard Wood, Lake of the Ozarks, and Mexico CBOCs
     clinical providers.

	   The parent facility’s EMC evaluate the Fort Leonard Wood, Lake of the Ozarks, and
     Mexico CBOCs’ emergency preparedness activities, participation in annual disaster




VA OIG Office of Healthcare Inspections                                                       i
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


     exercises, and staff training/education relating to emergency preparedness
     requirements.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete follow-up assessments for patients with a positive
     alcohol screen.

	   Staff consistently document the offer of further treatment to patients diagnosed with
     alcohol dependence.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

Designated Women’s Health Providers’ Proficiency. Ensure that all Designated
Women’s Health Providers:

	   Maintain proficiency as required for the provision of women’s health care.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–22, for the full text of the Directors’ comments.) We consider
recommendation 3 closed. We will follow up on the planned actions until they are
completed. 




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                   CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                 CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH primary care providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                        CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Fort Leonard
Wood, Lake of the Ozarks, and Mexico CBOCs. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement.
Table 2. EOC

NM                      Areas Reviewed                                        Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current               The CBOC’s inventory of hazardous materials at
       inventory of hazardous materials and waste          the Fort Leonard Wood, Lake of the Ozarks, and
       that it uses, stores, or generates.                 Mexico CBOCs was not reviewed for accuracy
                                                           twice within the prior 12 months.
 X     An alarm system and/or panic buttons are            Testing of the alarm/panic buttons at the Fort
       installed in high-risk areas (e.g., mental health   Leonard Wood, Lake of the Ozarks, and Mexico
       clinic).                                            CBOCs was not documented.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
 X     The CBOC conducts fire drills at least every        There was no evidence of fire drills occurring at
       12 months.                                          least every 12 months at the Fort Leonard Wood
                                                           and Lake of the Ozarks CBOCs.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.



VA OIG Office of Healthcare Inspections                                                                    3
                        CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM                     Areas Reviewed                                        Findings
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
       Patient-identifiable information is protected on
       laboratory specimens during transport so that
       patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are visible or unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              The examination rooms designated for women
       veterans in the examination room.                  veterans at the Lake of the Ozarks and Mexico
                                                          CBOCs were not equipped with either an
                                                          electronic or manual door lock.

                                                          Gowned women veterans at the Mexico CBOC
                                                          cannot access gender-specific restrooms
                                                          without entering public areas.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automatic external
       defibrillator.

       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       JC standards.
 X     The parent facility includes the CBOC in           The parent facility did not include the Fort
       required education, training, planning, and        Leonard Wood, Lake of the Ozarks, and Mexico
       participation leading up to the annual disaster    CBOCs in required education, training, planning,
       exercise.                                          and participation leading up to the annual
                                                          disaster exercises.

                                                          The parent facility did not document
                                                          EMP-specific training for any of the Fort Leonard
                                                          Wood, Lake of the Ozarks, and Mexico CBOCs
                                                          clinical providers.




VA OIG Office of Healthcare Inspections                                                                   4
                        CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


NM                     Areas Reviewed                                          Findings
 X     The parent facility’s EMC evaluates CBOC         The parent facility’s EMC did not evaluate the
       emergency preparedness activities,               Fort Leonard Wood, Lake of the Ozarks, and
       participation in annual disaster exercise, and   Mexico CBOCs’ emergency preparedness
       staff training/education relating to emergency   activities, participation in annual disaster
       preparedness requirements.                       exercise, and staff training/education relating to
                                                        emergency preparedness requirements.

Recommendations

1. We recommended that processes are improved to ensure review of the hazardous
materials inventory occurs twice within a 12-month period at the Fort Leonard Wood, Lake of the
Ozarks, and Mexico CBOCs.

2. We recommended that panic alarm testing is documented at the Fort Leonard Wood, Lake
of the Ozarks, and Mexico CBOCs.

3. We recommended that fire drills are performed every 12 months at the Fort Leonard Wood
and Lake of the Ozarks CBOCs.

4. We recommended that the doors to the examination rooms designated for women veterans
are equipped with electronic or manual locks at the Lake of the Ozarks and Mexico CBOCs.

5. We recommended that processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Mexico CBOC.

6. We recommended that the parent facility include staff at the Fort Leonard Wood, Lake of
the Ozarks, and Mexico CBOCs in required education, training, planning, and participation in
annual disaster exercises.

7. We recommended that the parent facility document EMP-specific training completed for the
Fort Leonard Wood, Lake of the Ozarks, and Mexico CBOCs clinical providers.

8. We recommended that the parent facility’s EMC evaluate the Fort Leonard Wood, Lake of
the Ozarks, and Mexico CBOCs’ emergency preparedness activities, participation in annual
disaster exercises, and staff training/education relating to emergency preparedness
requirements.




VA OIG Office of Healthcare Inspections                                                                      5
                        CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 30 (75 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism Guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for three of seven patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 13 of 23 RN Care Managers did
       received MI training within 12 months of           not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 13 of 23 RN Care Managers did
       received National Center for Health Promotion      not receive health coaching training within 12
       and Disease Prevention approved health             months of appointment to PACT.
       coaching training (most likely TEACH for
       Success) within 12 months of appointment to
       PACT.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    6
                        CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Recommendations

9. We recommended that staff consistently complete follow-up assessments for patients with a
positive alcohol screen.

10. We recommended that	 staff consistently document the offer of further treatment to patients
diagnosed with alcohol dependence.

11. We recommended that	 RN Care Managers receive MI and health coaching training within
12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                7
                        CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 15 (39 percent) of 38 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendation

12. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.




VA OIG Office of Healthcare Inspections                                                                     8
                        CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
 X     CBOC and PCC DWHPs maintained                   Thirty-nine (89 percent) of the 44 DWHPs at the
       proficiency requirements.                       CBOC and/or PCCs did not have evidence of
                                                       implementation of alternative plans to ensure
                                                       ongoing proficiency in women’s health care.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Model.

Recommendation

13. We recommended that	 clinical executive/primary care leaders ensure that CBOC/PCC
DWHPs maintain proficiency as required for the provision of women’s health care.




VA OIG Office of Healthcare Inspections                                                                  9
                                                           CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                                                                 Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.




                                                                                     Uniquesd                                 Encountersd

                                  Station                  CBOC
         Location        State               Localitye                  MHg       PCh      Otheri       All       MHg        PCh      Otheri        All
                                     #                      Sizef
    Ft Leonard Wood MO    MO      589GF        Rural      Mid-Size      699      2,188      2,750     3,510      3,308      5,759     10,682      19,749
    Jefferson City        MO      589G8       Urban       Mid-Size      379      2,552      2,618     3,352      1,867      7,797     10,671      20,335
    Lake of the
                          MO      589GH        Rural      Mid-Size      396      2,261      1,706      2,593     1,572      4,841      7,217      13,630
    Ozarks/Camdenton
    Kirksville            MO      589GE        Rural      Mid-Size      177      2,285       861       2,313     1,304      5,614      1,780      8,698
    Mexico                MO      589GX        Rural      Mid-Size      216      1,862       986       2,001     1,013      4,344      2,027      7,384
    St. James             MO      589GY        Rural      Mid-Size      340      1,589      1,070      1,776     1,750      3,739      3,698      9,187
    Sedalia               MO      589JA        Rural        Small       298      1,088       575       1,307     1,923      3,124      1,033      6,080




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                   10
                     CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


                                   CBOC Services Provided 

In addition to primary care integrated with WH and mental health care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.j

                                                                                             Tele-Health
              CBOC             Specialty Care Servicesk      Ancillary Servicesl
                                                                                              Servicesm
    Ft Leonard Wood MO                   ---                     Audiology               Tele Primary Care

    Jefferson City                       ---                     Audiology               Tele Primary Care
    Lake of the                          ---
                                                             MOVE! Programn              Tele Primary Care
    Ozarks/Camdenton
    Kirksville                           ---                          ---                Tele Primary Care

    Mexico                               ---                          ---                Tele Primary Care

    St. James                            ---                          ---                Tele Primary Care

    Sedalia                              ---                          ---                Tele Primary Care




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC.

k
  Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

l
  Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  Move! Prog: VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                       11
                                                           CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                                                                 Appendix B


                                                        PACT Compass Metrics





Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                12
                                                           CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO




 Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
 The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month
 on the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no fiscal year to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                               13
                                                          CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO




 Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the
 total VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                             14
                                                          CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO




 Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
 care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
 excluded from this metric.
VA OIG Office of Healthcare Inspections                                                                                                            15
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                     Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:        January 10, 2014

          From:         Director, VA Heartland Network (10N15)

       Subject: 	 CBOC and PCC Reviews of the Harry S. Truman
                  Memorial Veterans’ Hospital, Columbia, MO

             To: 	      Director, Kansas City Office of Healthcare Inspections
                        (54KC)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. Attached please find Truman VA’s response to the draft report of the
       Community Based Outpatient Clinic (CBOC) and Primary Care Clinic
       Reviews conducted the week of December 9, 2013.

       2. I have reviewed and concur with the Acting Medical Center Director’s
       response and proposed action plans.

       3. If you have any questions, please feel free to contact Julie Madere,
       Acting VISN 15 Quality Management Officer at 816-701-3000.



       (original signed by:)

       William P. Patterson, MD. MSS




VA OIG Office of Healthcare Inspections                                                      16
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                     Appendix D
                       Acting Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:        January 3, 2014

          From: 	       Acting Director, Harry S. Truman Memorial Veterans’
                        Hospital (589A4/00)

       Subject: 	 CBOC and PCC Reviews of the Harry S. Truman
                  Memorial Veterans’ Hospital, Columbia, MO

             To:        Director, VA Heartland Network (10N15)

       1. I have reviewed and concur with the findings and recommendations in
       the draft report of the Community Based Outpatient Clinic (CBOC) and
       Primary Care Clinic Reviews conducted the week of December 9, 2013.

       2. Corrective action plans have been developed or implemented for all
       recommendations as outlined in the attached report.



       (original signed by:)

       Robert G. Ritter, FACHE




VA OIG Office of Healthcare Inspections                                                      17
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes are improved to ensure review
of the hazardous materials inventory occurs twice within a 12-month period at the Fort
Leonard Wood, Lake of the Ozarks, and Mexico CBOCs.

Concur

Target date for completion: June 30, 2014

Facility response:     An annual chemical inventory is conducted by all
services/departments in accordance with the Occupational Safety and Health
Administration Hazard Communication Standard. This annual review is coordinated by
the Safety Office and is currently being conducted in December. To ensure a
semi-annual review, our process has been changed to conduct a review in June and
December each year.

Recommendation 2. We recommended that panic alarm testing is documented at the
Fort Leonard Wood, Lake of the Ozarks, and Mexico CBOCs.

Concur

Target date for completion: December 31, 2013

Facility response: The panic alarms will be tested monthly at each CBOC by the VA
Police. Documentation of the testing will include which alarms were tested as well any
identified issues and corrective actions taken. Documentation of the panic alarm tests
will be maintained by the Police Chief. Monthly testing was completed for all CBOC
locations in December 2013.

Recommendation 3. We recommended that fire drills are performed every 12 months
at the Fort Leonard Wood and Lake of the Ozarks CBOCs.

Concur

Target date for completion: July 1, 2013

Facility response: This issue was previously identified by our new Safety Specialist,
and a recording system was put into place in June 2013 that allows for easy
identification of due dates. Six part folders were created for each CBOC, including fire
drill records, life safety reviews, and fire alarm system testing. In addition, an electronic
database was created to track testing/drill dates and the use of calendar reminders was


VA OIG Office of Healthcare Inspections                                                      18
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


implemented. The database is available to all Safety employees. There have been no
deficiencies since implementation of the tracking system.

Recommendation 4. We recommended that the doors to the examination rooms
designated for women veterans are equipped with electronic or manual locks at the
Lake of the Ozarks and Mexico CBOCs.

Concur

Target date for completion: 	January 31, 2014-Lake Ozark CBOC
                             September 30, 2014-Mexico CBOC

Facility response: Locking hardware will be installed for the six exam rooms and the
procedure room at the Lake of the Ozarks CBOC. We have received approval to
relocate the Mexico CBOC during fiscal year 2014. Part of the construction process will
be to have locks placed on all exam room doors. In the interim, all exam rooms at the
Lake of the Ozarks and Mexico CBOCs have curtains for privacy.

Recommendation 5. We recommended that processes are strengthened to ensure
women veterans can access gender-specific restrooms without entering public areas at
the Mexico CBOC.

Concur

Target date for completion: 	January 31, 2014

Facility response: Due to space restrictions at the current CBOC location, the only
available restrooms are in a public area. Staff at the Mexico CBOC will be instructed to
inform women Veterans to use the restroom prior to going back to the exam room.
Please note that we have received approval to relocate the Mexico CBOC during fiscal
year 2014. As part of the new clinic, internal bathrooms will be available.

Recommendation 6. We recommended that the parent facility include staff at the Fort
Leonard Wood, Lake of the Ozarks, and Mexico CBOCs in required education, training,
planning, and participation in annual disaster exercises.

Concur

Target date for completion: 	March 1, 2014

Facility response: A CBOC Emergency Plan will be incorporated into the medical
center’s Emergency Operations Plan (EOP). The CBOC Emergency Plan will address
the types of emergencies specific to the CBOCs, i.e., utility failure, weather related, etc.,
and the response plan for each. Training will be provided by the CBOC Manager and
documented and reported to the EMC. Planned disaster exercises will include CBOC
participation.




VA OIG Office of Healthcare Inspections                                                      19
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Recommendation 7. We recommended that the parent facility document EMP-specific
training completed for the Fort Leonard Wood, Lake of the Ozarks, and Mexico CBOCs
clinical providers.

Concur

Target date for completion: June 30, 2014

Facility response: The CBOC Manager will provide initial and annual EOP training.
This will be documented and reported to the EMC.

Recommendation 8. We recommended that the parent facility’s EMC evaluate the
Fort Leonard Wood, Lake of the Ozarks, and Mexico CBOCs’ emergency preparedness
activities, participation in annual disaster exercises, and staff training/education relating
to emergency preparedness requirements.

Concur

Target date for completion: June 30, 2014

Facility response: CBOC semi-annual drills will be conducted by the CBOC Manager at
each CBOC. A summary of the CBOCs’ emergency preparedness activities including
drills, participation in annual disaster exercise, and staff training/education relating to
emergency preparedness will be reported to the EMC the month after drills are
conducted. The report will include any identified areas of improvement. Documentation
of the report/discussion will be included in the EMC minutes.

Recommendation 9. We recommended that staff consistently complete follow-up
assessments for patients with a positive alcohol screen.

Concur

Target date for completion: February 28, 2014

Facility response: Providers have been educated on the need to complete further
assessment for positive alcohol screens. Licensed practical nurses/registered nurses
completing the initial screen have been educated to notify the provider if the screen is
positive. The national reminder template was enhanced locally to create a mandated
field for follow-up assessments. Monitoring of records for completion of follow-up
assessments for patients with a positive alcohol screen will be completed for a minimum
of 3 months or until 90 percent compliance is achieved and sustained.

Recommendation 10. We recommended that staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: February 28, 2014


VA OIG Office of Healthcare Inspections                                                      20
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Facility response: The national reminder will be modified locally to make the field for
further treatment mandatory. Currently it is in the reminder as optional. We have
contacted the national program office to review the reminder. As part of this reminder,
further treatment recommendations/options will be outlined for Primary Care and Mental
Health providers to be incorporated into the clinical care provided to those Veterans
diagnosed with alcohol dependence. Education of all pertinent providers will be
completed related to treatment offerings and documentation of those offerings.
Monitoring of records for documentation of the offer for further treatment for patients
with a diagnosis of alcohol dependence will be completed for a minimum of 3 months or
until 90 percent compliance is achieved and sustained.

Recommendation 11. We recommended that RN Care Managers receive MI and
health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: June 30, 2014

Facility response: The Health Promotion Disease Prevention Coordinator has now
received official certification in regards to Motivational Interviewing and TEACH training.
This training will be provided to all delinquent RN Care Managers by June 30, 2014. In
the future all new RN Care Managers will receive the training within 12 months of
appointment to PACT.

Recommendation 12.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: January 31, 2014

Facility response: The template notes for the surgery specialties are being revised to
automatically pull a list of Veterans’ current medications into the note for review and
documentation of medication reconciliation with any newly prescribed medications. All
providers were re-educated on the requirement to document medication reconciliation
and appropriate discussion.

Recommendation 13. We recommended that clinical executive/primary care leaders
ensure that CBOC/PCC DWHPs maintain proficiency as required for the provision of
women’s health care.

Concur

Target date for completion: June 30, 2014

Facility response: All DWHPs will be required to complete 2 hours of women’s health
specific Continuing Medical Education every year. Primary Care is working with the


VA OIG Office of Healthcare Inspections                                                      21
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO


Credentialing Department to request this be documented and monitored as part of the
re-credentialing review of all DWHPs performed every 2 years.




VA OIG Office of Healthcare Inspections                                                      22
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Larry Selzler, MSPT, Team Leader
Contributors            Laura Snow, LCSW, MHCL
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Stephanie Hensel, RN, JD
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Cindy Niemack-Brown, CMSW, LMHP
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        James Seitz, RN, MBA
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      23
               CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Heartland Network (10N15)
Acting Director, Harry S. Truman Memorial Veterans’ Hospital (589A4/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Roy Blunt, Claire McCaskill
U.S. House of Representatives: Sam Graves, Vicky Hartzler, Blaine Luetkemeyer,
 Jason Smith


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      24
                   CBOC and PCC Reviews at Harry S. Truman Memorial Veterans’ Hospital, Columbia, MO
                                                                                         Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    25
